1

APPENDIX
TABLE OF CONTENTS

Appendix A

Order on Motion for Summary
Judgment
Superior Court
Third Judicial District at Homer
(07-12-2016)
App.l

Appendix B

Motion for Summary Judgment
Superior Court
Third Judicial District at Homer
(09-13-2017)
App.16

Appendix C

Opinion
Supreme Court of the State of Alaska
(09-17-2019)
App.33

Appendix D

Petition for Rehearing (Order!
Supreme Court of the State of Alaska
(10/29/2019)
App.55

App. 1

APPENDIX A
IN THE SUPERIOR COURT FOR THE STATE OF
ALASKA THIRD JUDICIAL DISTRICT AT HOMER
[Case No. 3HO- 13-213 Cl]
Filed-July 12, 2016
THOMAS MICHAEL TAFFE

)

DEVONY LOUISE LEHNER

)

v.

)

FIRST NATIONAL BANK OF ALASKA.

)

ORDER ON MOTION FOR SUMMARY
JUDGMENT

I. BACKGROUND
Beginning in 2006, Plaintiffs Taffe and Lehner
borrowed a large sum of money from Defendant First
National Bank of Alaska ("FNBA") to finance a
housing development in Homer called Spring Hill

App. 2
Park. The parties had several negotiations resulting
in various loans and Deeds of Trust. In 2008, the
parties renegotiated a loan in excess of $2 million
and executed a new Deed of Trust which covered
most of the land in the proposed housing
development. Defendants properly recorded the Deed
of Trust ("DOT") covering this loan on May 21, 2008.
This Deed of Trust referenced Plat 2006-54. A few
months later, Plaintiffs recorded a replat of the
housing development that divided and relabeled
some of the tracts. This replat was not included in
the legal description found in the 2008 Deed of Trust.
Eventually, Plaintiffs defaulted on the loan and
Defendant went through non-judicial foreclosure
proceedings culminating in the sale of the property.
Plaintiffs then sued FNBA on several theories
arising out of the foreclosure.
Defendant filed a motion for summary
judgment on Plaintiffs' claim that the 2008 Deed of
Trust was an adhesion contract and was ambiguous
about which property it secured. Defendant also
moved for summary judgment on Plaintiffs' claims
for misrepresentation.

App. 3
STANDARD OF REVIEW
In order to prevail on summary judgment
under Alaska Rule of Civil Procedure 56(c), the
moving party must show "that there is no genuine
issue as to any material fact and that the moving
party is entitled to judgment as a matter of law." In
accordance with Civil Rule 56, the adverse party may
then set forth "all material facts as to which it is
contended there exists a genuine issue necessary to
be litigated, and any other memorandum in
opposition to the motion." All facts are viewed in a
light most favorable to the nonmoving party.1
II. DISCUSSION
A. THE 2008 DEED OF TRUST IS NOT AN
ADHESION CONTRACT
Plaintiffs claim the 2008 DOT is an adhesion
contract. The formative case on what constitutes an
adhesion contract in Alaska is Burgess Const. Co. v.
Alaska.2 The court found that "judicial recognition of
adhesion contracts has generally been limited to
consumer transactions in which form contracts are
1 City o f Kodiak v. Samaniego, 83 P ,3d 1077,1082 (Alaska 2004).
2 614 P.2d 1380 (Alaska 1980).

App. 4
offered to the public on a mass basis,"3 and described
them as:
"a handy shorthand descriptive of standard form
printed contracts prepared by one party and
submitted to the other on a "take-it-or-leave-it" basis.
The law has recognized there is often no true
equality of bargaining power in such contracts and
has accommodated that reality in construing them.
Other authorities have emphasized that not only
must the contract be offered on a "take-it-or-leave-it"
basis, the party with the weaker bargaining power
must also have little choice but to take it. In other
words, the transaction should be one which as a
practical matter is essential, or nearly so, from the
standpoint of the weaker party."4
Ultimately, the court rejected Burgess's
argument that the contract at issue was adhesive
because it found the contract was a commercial
contract, as opposed to a consumer agreement, was
for a large amount of money, was freely negotiated,
and was between two relatively sophisticated parties
who had the advice of attorneys.5 The court reasoned
Burgess was not without options in the face of the
contract and could have simply refused to bid.6
3
4
5
6

Id at 1384
Id.
Id.
Id.

App. 5
Similar to the contractual relationship in
Burgess, the relationship between the Plaintiffs and
FNBA is commercial and involves a large sum of
money. The 2008 DOT is a commercial contract
securing a real estate development loan of over $2
million. In addition, Plaintiffs are sophisticated
parties and were supported by a team of experts.
Taffe has a law degree and prior real estate
development experience.7 Plaintiffs relied on a team
of experts, including an engineer, surveyor, and
contractor, that assisted with construction and
infrastructure.8 The 2008 DOT was also not a take-itor-leave-it contract. Unlike a mandatory insurance
policy, Plaintiffs were not obligated to construct a
real estate subdivision project. While it is true that
the overall form of the DOT is standardized, there is
no evidence suggesting that Plaintiffs sought to
negotiate or change any legal descriptions or
provisions contained within it. Moreover, Plaintiffs
signed similar deeds of trust in connection with other
loans from FNBA.
7 Taffe Deposition, at 12-13.
8 Taffe Depo, at 11-15

App. 6
Plaintiffs argue that whether the DOT was an
adhesion contract is a question of fact because the
court should determine whether the contract
between the parties was the product of reasonably
balanced bargaining power and whether the
contractor could have withdrawn his bid without
significant harm to himself.9 In support of their
equality of bargaining power argument, Plaintiffs
make the claims that "FNBA drafted an extremely
one-sided deed of trust contract favoring itself and
that "a negotiation between a husband and wife
acting as individuals and a rich and powerful bank is
not a bargain between equals, it 10 These mere
assumptions and speculations are not facts and are
insufficient to overcome Defendant's motion for
summary judgment on this issue.
Plaintiffs also claim that there were no
practicable other financing options in May of 2008
due to the global recession. Plaintiffs point out that
9 Plaintiffs Second "OPPOSITION TO MOTION FOR SUMMARY
JUDGEMENT DETERMINING THAT THE MAY 20, 2008, DEED
OF TRUST IS NOT AMBIGUOUS OR ADHESIVE, at 8.
10 Plaintiffs Second "OPPOSITION TO MOTION FOR SUMMARY
JUDGEMENT DETERMINING THAT THE MAY 20, 2008, DEED
OF TRUST JS NOT AMBIGUOUS OR ADHESIVE, at 9.

App. 7
the recession of 2008 was characterized by the
following: "[g]lobal credit markets were increasingly
frozen;" "[r]eal estate financing in the United States
came to a standstill;" "[t]he catastrophic decline of
the DOW from over 13,000...to a low of under
6,500...was largely a collapse of US home prices;" and
"the collapse of the domestic and international
markets for credit default swaps related to the
bundling of US residential mortgages, and the
resulting credit freeze."11 Understandably, the
ensuing financial climate put Plaintiffs under
economic pressure, but the above mentioned market
dynamics that affected millions of people in various
ways did not, standing alone, create an adhesion
contract. Accordingly, the court grants Defendant's
motion for summary judgment that the 2008 DOT
was not an adhesion contract.
B. INTERPRETATION OF CONTRACT
In Alaska, there are two possible rules of
interpretation that apply to the ambiguity of a
11 Plaintiffs Second "OPPOSITION TO MOTION FOR
SUMMARY JUDGEMENT DETERMINING THAT THE
MAY 20, 2008, DEED OF TRUST JS NOT AMBIGUOUS OR
ADHESIVE, at 10.

App. 8
written document: the deed interpretation rule and
the contract interpretation rule.12 Whether a deed is
ambiguous is question of law.13 First the court looks
to the four comers of the documents to see if the
parties' intent is unambiguous.14 Only if the words
are capable of more than one interpretation can the
court go further.15 Rules governing the interpretation
of a contract, however, are more flexible and often
focus on whether the contract is a fully or partially
integrated document.16
Although titled as a "deed," a deed of trust is
essentially a mortgage, which allows the trustee to
have an interest in the subject property until a loan
or promissory note involving the property has been
paid.17 Mortgages are interpreted the same way as
other contracts.18 Accordingly, the court will construe
the 2008 DOT under rules governing the
12
13
14
15
16

Estate a/Smith v. Spinelli, 216 P.3d 524, 530 (Alaska 2009).
Norken Corp. v. McGahan, 823 P.2d 622, 626 (Alaska 1991).
Id.
Id.
Alaska Diversified Contractors, Inc. v lower Kuskokwim Sch Dist.,
778 P.2d 581,583 (Alaska 1989).
17 AS 34.20.110 provides that a deed of trust shall be treated as a
mortgage.
18 BankofNew York Mellon v, Nunez, 180 So.3d 160 (Fla.3d. DCA
1025); Green Tree Service v. Milam, 177 So.3d 7 (Fla.3d DCA 2015).

App. 9
interpretation of contracts rather than deeds.
Plaintiffs claim the 2008 DOT is not a fully
integrated document because the term "Related
Documents" envisioned the parties' intent to include
a new replat and a renegotiated DOT.
Plaintiffs' original briefing on this issue was
somewhat confusing. However, at oral argument,
Plaintiffs were able to explain their position more
clearly. Plaintiffs contend the 2008 DOT was a "bait
and switch" scheme. Their position is the 2008 DOT,
like the previous DOT executed by the parties,
envisioned a new DOT being executed once the
Plaintiffs filed a new replat, approved by the
Borough, which delineated Lots 31-50, and excluded
other tracts, including Tract J.
Plaintiffs maintain this unusual arrangement
was occasioned by the peculiarities created by the
City of Homer's method of approving subdivisions.
Unlike other municipalities in the Kenai Borough,
the City of Homer would not sign off on a subdivision
until the developer could prove it had financing for
the project. Because the Borough would not approve

App. 10
the plat until the City of Homer had signed off on the
subdivision, the Plaintiffs had no way to go forward
with the project unless the Defendant provided
financing before the plat was completed.
Once Plaintiffs had the loan, they were able to
obtain the City of Homer's approval for the
subdivision and then submit the plat for approval by
the Borough. Plaintiffs contend this is why plat B-2A only lists lots 1-30 and why the Partial Release
provision on page 6 of the DOT refers to Lots 32-50
even though those lots are not listed on plat B-2-A.
As such, Plaintiffs claim the 2008 DOT is not a fully
integrated agreement and the court should allow the
introduction of extrinsic evidence to explain these
terms.
A writing that expresses part of the parties'
agreement is considered to be a partially integrated
agreement whereas a writing that sets out the
parties' complete agreement is deemed a fully
integrated agreement.19 The parol evidence rule does
19 Froines v. Valdez Fisheries Development Association, Inc., 75 P3d 83,
86 (Alaska 2003); RESTATEMENT (SECOND) OF CONTRACTS,
Section 210.

App. 11
not allow the terms of a fully integrated contract to
be varied by additional terms, but does allow
extrinsic evidence to be introduced to explain terms
in a partially integrated contract.20
There is a three step process to resolving parol
evidence issues. This process requires the court to
consider: 1) whether the contract is integrated, 2)
what the contract means, and 3) whether the prior
agreement conflicts with the integrated agreement.21
Although extrinsic evidence may not be used if the
court determines that the document is fully
integrated, extrinsic evidence may be introduced to
assist the court in resolving the first two inquiries,
that is, whether the contract was fully integrated
and its meaning.22
Because this is a factual determination that
must be resolved by the court, this issue is not ripe
for summary judgment and Defendant's motion for
summary judgment is denied. This does not mean
the court has found the DOT was not an integrated
20 Id.
21 Id.
22 Id.

App. 12
document, only that Plaintiffs have the right to
present additional factual evidence on the issue of
whether 2008 DOT is a fully or partially integrated
contract.

C. CLAIMS OF FRAUD AND
MISREPRESENTATION.
Defendant also moved for summary judgment
on Plaintiffs' claims for fraud and intentional
misrepresentation in connection with the execution
of the 2008 DOT. As previously discussed, Plaintiffs'
position is that the Defendant did a "bait and switch"
in connection with the execution of the 2008 DOT
because the 2008 DOT was supposed to be replaced
with a new DOT that was not as expansive and did
not include Tract J. Plaintiffs argue that the course
of dealings between the parties with respect to an
earlier DOT support their argument as to what was
intended with the 2008 DOT.23 As the court indicated
at earlier proceedings, allegations of fraud or
misrepresentation are almost always a question of
fact to be resolved at trial. Because the court finds
23 Plaintiffs rely on the commercial lending documents, various emails,
and a memo from Erik Niebuhr as factual support for this claim.

App. 13
that Plaintiffs' allegations of fraud and
misrepresentation with respect to the 2008 DOT are
questions of fact, the court denies Defendant's motion
for summary judgment on this issue.
Plaintiffs also claim Defendant made
misrepresentations to the bankruptcy court that are
actionable. The court cannot discern how any conduct
by the Defendant at a subsequent bankruptcy
hearing is actionable in this case. At a prior hearing,
the Plaintiffs agreed they were not challenging the
trustee's sale and were only seeking damages for the
loss of their property as a result of the foreclosure. In
their opposition to the motion for summary
judgment, they admit they are not bringing a claim
for defamation. Thus, it is unclear how any
representations made by the Defendant's attorney at
a bankruptcy hearing several years after the
execution of the 2008 DOT amounts to a separate
claim for fraud or misrepresentation. Plaintiffs have
not submitted any documents or other evidence to
support this claim.24 Therefore, the court grants
24 Plaintiffs may be requesting the court to consider the statements at the
bankruptcy hearing as evidence in support of their claim for fraud.

App. 14
Defendant's motion for summary judgment on
Plaintiffs' claim that statements made at a
subsequent bankruptcy proceeding constitute fraud
or misrepresentation in this case, or were relied upon
by the Plaintiffs at the time they signed the DOT in
2008.
CONCLUSION
The 2008 Deed of Trust is not an adhesion
contract or ambiguous. THEREFORE, IT IS
HEREBY ORDERED Defendant's motion for
summary judgment on whether the 2008 Deed of
Trust is an adhesion contract is GRANTED.
The court finds it is a question of fact whether
the 2008 Deed of Trust was a fully integrated
contract. THEREFORE, IT IS HEREBY ORDERED
Defendant's motion for summary judgment on this
issue is DENIED.
It is a question of fact whether the Defendant
committed fraud or intentional misrepresentation in
connection with execution of the 2008 Deed o f Trust.
The admissibility of a statement made by a party opponent is
governed by the Rules of Evidence but does not create a separate
claim for damages.

App. 15

THEREFORE, IT IS HEREBY ORDERED
Defendant's motion for summary judgement on this
issue is DENIED. However, the court finds there no
question of fact that the alleged representations
made at the bankruptcy hearing do not constitute a
claim of fraud in connection with the 2008 Deed of
Trust. THEREFORE, IT IS HEREBY ORDERED
Defendant's motion for summary judgment on this
issue is GRANTED.
DATED in Kenai, Alaska, this 12 day of July 2016.
Anna M. Moran
Superior Court Judge

App. 16

APPENDIX B

IN THE SUPERIOR COURT FOR THE STATE OF
ALASKA THIRD JUDICIAL DISTRICT AT HOMER
[ Case No. 3HO-13-213 Cl]
Filed — September 13, 2017

THOMAS MICHAEL TAFFE
DEVONY LOUISE LEHNER
v.
FIRST NATIONAL BANK OF ALASKA.

)
)
)
)

MOTION FOR SUMMARY JUDGMENT
RE: STATUTE OF LIMITATIONS
This case came before the court on July 18,
2017 for an evidentiary hearing regarding Defendant
First National Bank of Alaska’s (FNBA) Motion for
Summary Judgment Re: Statute of Limitations. For
the foregoing reasons, FNBA’s Motion for Summary
Judgment Re: Statute of Limitations is GRANTED.

App. 17
I.

BACKGROUND
Plaintiffs Thomas Taffe and Devony Lehner

borrowed money from FNBA in order to finance a
housing development in Homer, Alaska, called
Spring Hill Park. The parties negotiated and agreed
to various loans and Deeds of Trust to finance the
development. In 2008, the parties agreed to a loan in
excess of $2,000,000 and executed a new Deed of
Trust. The loan covered most of the land in the
proposed housing development. The Deed of Trust
described the property as follows:
“Lots One (1) through Four (4), Nine (9), Twelve
(12) through Twenty (20) and twenty two (22) and
Tract B-Two A (B-2-A), SPRING HILL PARK , UNIT
1, ACCORDING TO Plat No. 2006-54, in the Homer
Recording District, Third Judicial District, State of
Alaska.”
The 2008 Deed of Trust provided for the
partial release of various lots if sold for agreed upon
minimum prices. Tract B-2-A included a large
undeveloped area, including a valuable parcel later
designated as Tract J. The 2008 Deed of Trust
referenced Plat 2006-54 and was recorded on May 8,
2008.

App. 18
On August 5, 2008, Plaintiffs recorded a re­
plat of the housing development that divided and
relabeled some of the tracts. The legal description in
the 2008 Deed of Trust did not match the re-plat of
the development No.2008-48. Both parties knew that
the plaintiffs had recorded the 2008 plat.
Plaintiffs allege fraud, misrepresentation and
fraud-in-factum based upon FNBA's failure to
reissue a new Deed of Trust once the re-plat of the
property had been recorded. Plaintiffs contend they
had an agreement with FNBA that it would execute
a new Deed of Trust once Plaintiffs filed an updated
plat which delineated Lots 31-50 and excluded other
tracts, including Tract J.
According to Plaintiffs, this was the practice
the parties had to follow because the City of Homer
would not sign off on a subdivision until the
developer could prove it had financing for the project.
Once plaintiffs could prove they have the loan, the
City of Homer would approve the subdivision and
Plaintiffs would submit a plat for approval by the
borough. Once the plat was approved, the Plaintiffs
would record the plat and FNBA would execute a

App. 19
new Deed of Trust that covered the new lots while
releasing the other property in Tract B-2-A. This was
the procedure the parties utilized with the prior Deed
of Trust.
Plaintiffs allege FNBA did not follow this
practice with the 2008 Deed of Trust even though
Plaintiffs filed the re-plat on August 5, 2008.
Following a significant downturn in the economy,
Plaintiffs defaulted on some of the loan payments.
The parties went through a non-judicial foreclosure
culminating in the sale of the property.
Following the foreclosure, Plaintiffs sued
FNBA on several theories. The gravaman of
Plaintiffs' complaint is that FNBA fraudulently
induced them to sign loan documents when FNBA
knew it was not going to follow the agreed-upon
practice of executing a new Deed of Trust after
Plaintiffs recorded the re-plat. Plaintiffs allege that
when they fell behind on their payments, FNBA
foreclosed on all the property, including Tract J,
which was not supposed to be included in the deed of
trust. FNBA denies these allegations.
Plaintiffs filed their initial complaint in this

App. 20
case on November 13, 2013. After years of litigation,
Defendant filed a motion for summary judgment on
December 30, 2016. The court held an evidentiary
area hearing on July 18, 2017, in order to determine
the date on which the statute of limitations began to
run.
STANDARD OF REVIEW
Under Alaska Rules of Civil Procedure 56(c), the
moving party must show “That there is no genuine
issue as to any material fact and that the moving
party is entitled to judgment as a matter of law.” The
adverse party may then set forth “All material facts
as to which it is contended that there exists a
genuine issue necessary to be litigated, and any
other memorandum in opposition to the motion. ”25
The Alaska Supreme Court has advised that the
preferred memo of resolving factual issues governing
effective date of the applicable statute of limitations
is to hold an evidentiary area hearing.26 The court
held that hearing on July 18, 2017.
25 City ofKodiak v. Samaniego, 83 P.3d 1077, 1082 (Alaska 2004).
26 Reasner v. State Dep't ofHealth & Soc. Servs, 394 P.3d 610, 615
(Alaska 2017), as amended (May 19, 2017) citing Catholic Bishop of
N. Alaska v. Does 1-6, 141 P.3d 719, 725 (Alaska 2006).

App. 21

n. DISCUSSION
A. THE CLAIMS ARE BARRED BY THE
STATUTE OF LIMITATIONS
Plaintiffs have alleged fraud, misrepresentation, and
fraud-in-factum as potential causes of action in this
case. Plaintiffs' claims for fraud and
misrepresentation are tort claims and subject to the
two-year statute of limitations. Plaintiffs claim for
fraud-in-factum is subject to the three-year statute of
limitations for contracts, 27

28

Whenever two different

statutes of limitation apply, preference is given to the
longer statute of limitations.29 Thus, the court finds
the three-year statute of limitations applies in this
case.
The statute of limitations begins to run “When
a reasonable person in like circumstances would
have enough information to alert that person that he
or she has a potential cause of action or should begin
27 Bauman v. Day, 892, P.2d 817, 825 (Alaska 1995); AS 09.10.070.
28 See AS 09.10.053.
29 City ofFairbanks v. Amoco Chemical Co., 952 P2d 1173, 1181
(Alaska 1998), Fernandes v. Portwine, 56 P.3d 1, 6 (Alaska 2002).

App. 22
an inquiry to protect his or her rights, ”30 The
standard does not require that a plaintiff note each
element of a cause of action; rather it focuses on
when a plaintiff has sufficient information to prompt
an inquiry. 31

32

Some inquiries are considered productive
while others are not.If an unproductive inquiry has
been made, the analysis changes and the question is
whether the plaintiffs inquiry was reasonable. If the
inquiry was not reasonable, then the cause of action
accrues at the inquiry notice date unless a
reasonable inquiry would not have been productive
within the statutory period.33 If a reasonable inquiry
was made, the limitations period is told until
plaintiff either received actual knowledge of the facts
giving rise to the cause of action or received new
information which would prompt a reasonable person
to inquire further.34 In order to determine this date,
the court uses a fact intensive analysis.35 The Alaska
30
31
32
33
34
35

Gefrs v. Davis Wright Tremaine, 306 P.3d 1264, 1275 (Alaska 2013).
Cameron v. Slate, 822 P.2d 1362, 1366 (Alaska 1991).
Gefre at 1275, citing Pedersen v. Zielski, 822 P.2d 903 (Alaska 1991)
Id
Id
Ranes & Shine, LLC v. MacDonald Miller Alaska, Inc., 355 P3d 503,
509 (Alaska 2015), reh'g denied (imt 25. 2015).

App. 23
Supreme Court has advised that trial courts should
hold evidentiary hearings to resolve disputes
regarding accrual dates..36
The issue in this case is at what point did
Plaintiffs have enough information to alert them that
they had a possible cause of action or that they
should begin an inquiry to protect their rights, that
is, when should Plaintiffs have reasonably known
FNBA misrepresented that it was not going to issue
a new Deed of Trust releasing the other property
covered by B-to-A, including Tract J, after Plaintiffs
filed the re-plat on August 5, 2008.
FNBA argues that Plaintiffs' claim accrued in
2009 after the FNBA did not execute a new Deed of
Trust following Plaintiffs recording of the re-plat,
Plat No. 2008-48. FNBA argues that Plaintiffs'
claims are barred because they had enough
information to inform them of their potential cause of
action by either 2009 or 2010. Plaintiffs argue that it
was not until after the bankruptcy proceedings that
they could have discovered their cause of action.
FNBA argues Plaintiffs were put on notice of
36 Reasner at 615.

App. 24
their claims in early 2009, when they realized FNBA
had not executed a new Deed of Trust consistent with
the prior practice, and again in late 2009, when
Plaintiffs sold tract F to Michael Hough and had to
obtain a release from FNBA before the sale could be
completed. FNBA further argues there was no
question that Plaintiffs reasonably should have
known that FNBA was not going to execute a new
Deed of Trust by February 1, 2010, when the parties
signed a Change in Terms Agreement extending the
loan deadline since the Change in Terms Agreement
stated it covered 28 lots plus various tracts in an un­
subdivided remainder.
The court agrees. Mr. Taffe testified that by
early 2009 he was getting concerned about FNBA not
executing the new Deed of Trust as previously
planned. Plaintiffs were expecting FNBA to execute a
new Deed of Trust providing a lien covering only the
15 remaining lots in Phase 1 and all of the lots in
Phase 2 but releasing the park tracts, Tract F and
Tract J.37 Although it could sometimes take several
weeks for FNBA to issue a new Deed of Trust, by
37 Exhibit C, Taffe Deposition (December 9, 2016) at pages 213-214.

App. 25
early 2009, Taffe started asking FNBA “Why isn't
this getting done?”38
Taffe further testified everything came to a
head during the sale of Tract F to Michael Hough
later in 2009. Plaintiffs needed to sell Tract F to pay
property taxes and their contractors. They were also
going to use part of the proceeds to pay the interest
on their loan to FNBA.39 At some point during
dependency of the sale, Taffe had an exchange with
Eric from FNBA regarding Tract F. Taffe told Eric
that it was his position that Tract F was not part of
the collateral for the loan. Eric responded by telling
Taffe to “read your Deed of Trust.” It is clear at this
point, Plaintiffs new FNBA was looking at the
collateral as encompassing all of B-2-A, including

Tract F.
On December 22, 2009, FNBA issued a partial
deed of conveyance, releasing only Tract F from the
lien created by the 2008 Deed of Trust, but not
releasing any of the other properties, including
Tracts A, B, C, D, H, and J. By this date, based upon
38 Id.
39 Id 226-221.

App. 26
Taffe’s prior conversations with FNBA and FNBA’s
response to the sale of Tract F, the Plaintiffs should
have reasonably been put on notice that FNBA was
not intending to execute a new Deed of Trust
releasing the other tracts consistent their prior
practice.
Plaintiffs claim this series of events did not
put them on notice regarding the alleged
misrepresentation because they did not consider
Tract F as part of the collateral for the loan.

They

contend that it was reasonable for them to believe
that FNBA also did not look at Tract F as collateral
because otherwise FNBA would have required
Plaintiffs pay 85% of the sale proceeds to FNBA as
per the Deed of Trust. Instead, FNBA allowed
Plaintiffs to use a portion of those funds to pay the
interest Plaintiffs owed on the loan as well as other
debts.40 However, as Plaintiffs pointed out repeatedly
during the course of this case, these were difficult
economic times. By October 2009, they had asked for
but had not received a new Deed of Trust as per their
expectations. Instead they were advised to “look at
40 Taffe affidavit, filed March 17, 2017.

App. 27
your Deed of Trust.” They also knew FNBA had only
released Tract F following sale of that property to
Michael Hough.
In his affidavit, Mr. Taffe stated although he
had “concerns” in 2009 about FNBA not filing a new
Deed of Trust, this was not the same as knowing
FNBA was engaging in fraudulent activities.
However, the test for determining the start of the
statute of limitations is not whether Plaintiffs knew
each and every element of their cause of action but
whether they had information that should have
prompted an inquiry regarding their claim.
Here, Plaintiffs knew by early 2009 that FNBA
had not executed a new Deed of Trust consistent with
past practices. By the October 2009 2009 sale to
Michael Hough, Plaintiffs also knew FNBA was
treating Tract F as if it was collateral for the loan. In
2009, when Taffe had a conversation with Eric from
FNBA about Tract F not being collateral, Eric told
him to read the Deed of Trust. Thus, at this point,
Plaintiffs knew FNBA had a different view of what
constituted the collateral under the Deed of Trust.
On December 21, 2009, when FNBA executed a

App. 28
partial release that only released Tract F from the
Deed of Trust, Plaintiffs unquestionably should have
known that FNBA was not acting in conformance
with its prior practice of issuing a new Deed of Trust.
By February 10, 2010, the parties entered into
a Change in Terms Agreement, extending the loan
deadline. The Change of Terms Agreement described
the property as “28 LOTS PLUS VARIOUS TRACTS
IN UNSUBDIVIDED REMAINDER.” Taffe testified
at a related bankruptcy proceeding that: “...what I
interpreted that to mean was Tract J is already
preliminarily approved for 22 additional residential
lots. That's why even you'll see when you look at
these documents, it's - the wording is ambiguous,
but I always assumed that when they said
'unsubdivided remainder,' they were talking about
the only portion that was left of tract B2 that could
be developed, which was Tract J...”
Thus, by 2010, Plaintiffs knew FNBA had
extended their loan to cover 28 residential lots as
well as other property, including Tract J, which,
according to Plaintiffs, was supposed to have been
excluded from the 2008 Deed of Trust. This

App. 29
information, coupled with the fact that for almost
two years FNBA had not filed a new Deed of Trust
but had instead treated Tract F as part of its
collateral when it signed a partial release in
December 2009, was sufficient to put Plaintiffs on
notice that FNBA as not acting in accordance with its
usual practice and a new Deed of Trust was not
forthcoming. This series of events would have put a
reasonable person on notice to make a further
inquiry or make a demand to protect their rights.
Accordingly, the court finds the Plaintiffs' claims are
barred by the applicable three year statute of
limitations because their claim was not filed until
November 13, 2013, and the Plaintiffs had all the
information they needed to move forward with the
claim from December 21, 2009 through February 2,
2010.
Plaintiffs' conclusion that they did not need to
inquire further simply does not align with the
discovery rule and subsequent inquiry notice
standard. Taffe claims in his affidavit that the
Plaintiffs were reasonable in believing FNBA did not
consider Tract F as part of the collateral for the Deed

App. 30
of Trust. Taffe cites a statement in FNBA's motion
for summary judgment where FNBA stated:
“Because Tract F was never intended to be a source
of the loan's repayment but would ensure interest
payments could be made through 2009, FNBA agreed
to the deal. ”41 First, his statement is not supported
by affidavit or other documents. But even assuming
it is true it would not change Plaintiffs' duty to
inquire why they were not receiving the expected
Deed of Trust releasing the other tracts after FNBA
released Tract F in December 2009. Nor does it
explain why Plaintiffs did not take further action
after they executed the Change of Terms Agreement.
Mr. Taffe testified that he has a law degree
and experience as a real estate developer. Taffe
admitted he had concerns in early 2009 when he did
not receive a new Deed of Trust within a reasonable
time consistent with past practices. Mr Taffe testified
about his concern when FNBA only provided a
partial release of Tract F following its sale to Michael
Hough. None of the other lots were released
consistent with Plaintiffs' expectations.
41 Taffe affidavit, March 21, 2017.

App. 31
By Taffe's own admission, Plaintiffs signed the
Change of Terms Agreement under protest.42 Taffe
contends in his affidavit that the term “various tracts
in unsubdivided remainder” did not describe any part
of the subdivision B-2-A. This assertion is in direct
conflict with Taffe's more believable statement under
oath at the bankruptcy hearing, that he understood
the unsubdivided remainder description in the
Change of Terms Agreement included Tract J.
The court specifically finds Mr. Taffe's
testimony at his depositions and the bankruptcy
proceedings to be credible and a more accurate
representation of the Plaintiffs beliefs regarding the
action and non-actions of FNBA.
III.

CONCLUSION

In light of the testimony presented at the
Evidentiary Hearing and the previously submitted
affidavits and depositions, the court finds that the
statute of limitations began to run on February 1,
2010, if not before, based upon a series of events
leading up to the filing of a partial Deed of
42 Id.

App. 32
Reconveyance by FNBA on December 21, 2009,
which covered only Tract F but released no other
tract. This conduct was confirmed by the Change in
Agreement dated February 1, 2010 that included an
“unsubdivided remainder” which Plaintiffs knew was
intended to cover Tract J and would have confirmed
that FNBA was not issuing a Deed of Trust
consistent with prior representations and promises.
Accordingly the court finds Plaintiffs' tort and
contract claims are barred by the statute of
limitations.
DATED at Kenai, Alaska, this 13th day of
September 2017.

Anna M. Moran
Superior Court Judge

App. 33

APPENDIX C
Notice: This opinion is subject to correction before publication in
the PACIFIC REPORTER. Readers are requested to bring
errors to the attention of the Clerk of the Appellate Courts, 303
K Street, Anchorage, Alaska 99501, phone (907) 264-0608, fax
(907) 264-0878, email corrections@akcourts.us.

THE SUPREME COURT
OF THE STATE OF ALASKA
THOMAS TAFFE and DEVONY LEHNER,
Appellants
v.
FIRST NATIONAL BANK OF ALASKA
Appellee
Superior Court No. 3HO-13-00213 Cl
Supreme Court No. S-16854
OPINION
No. 7411 — September 27, 2019
Appeal from the Superior Court of the State of
Alaska, Third Judicial District, Homer, Anna
Moran, Judge.
Appearances: Thomas Taffe and Devony
Lehner, pro se, Homer, Appellants. Bruce A.
Moore and Andrew B. Erickson, Landye
Bennett Blumstein LLP, Anchorage, for
Appellee.
Before: Bolger, Chief Justice, Winfree,

App. 34
Stowers, Maassen, and Carney, Justices.
WINFREE, Justice.
I.

INTRODUCTION
Borrowers brought suit alleging that their

lending bank had engaged in fraudulent real estate
lending practices. The bank responded that statutes
of limitations barred the borrowers’ fraud claims.
Following an evidentiary hearing to establish
relevant dates for the statutes of limitations inquiry,
the superior court entered judgment and awarded
attorney’s fees in the bank’s favor. The borrowers
appeal, arguing that the superior court erred in its
factual and legal determinations and otherwise
violated their due process rights. Seeing no error or
due process violation in the superior court’s rulings,
we affirm its decisions.
II.

FACTS AND PROCEEDINGS
Thomas Taffe and Devony Lehner borrowed

money from First National Bank of Alaska to develop
a Homer planned community subdivision, with some
tracts reserved for conservation and outdoor

App. 35
activities.43 This 2006 loan was secured by a deed of
trust covering the entire property. Taffe and Lehner
first subdivided the land into a group of lots with a
single remainder tract. Once they recorded the
subdivision plat, First National recorded a new deed
of trust covering only the subdivided lots, releasing
its security interest in the remainder tract.
In 2008 Taffe and Lehner obtained a second
loan from First National, using it to retire the first
loan and develop additional lots. They recorded a
second plat subdividing the remainder tract into
additional lots and several new tracts. First National
recorded a deed of trust — signed by Taffe and
Lehner — covering the entirety of the subdivision
except lots already sold.
By early 2009 Taffe and Lehner became
concerned, expecting First National to have released
its security interest in the unsubdivided tracts as it
had done in the first transaction. Late in 2009 Taffe
and Lehner wanted to sell one tract to raise money
for loan payments and other expenses. Taffe and
Lehner had to negotiate the tract’s release from First
43 See AS 34.08.030 (providing for planned community declaration).

App. 36
National’s deed of trust security interest; First
National’s release terms included restrictions on
Taffe and Lehner’s use of the sale proceeds.
Taffe and Lehner struggled to meet the loan’s
repayment terms and requested an extension,
ultimately executing a change in terms agreement
with First National in February 2010; despite Taffe
and Lehner’s continued objection that First
National’s deed of trust was not intended to cover the
unsubdivided tracts, the collateral expressly
remained the same. Following an additional
extension, in November 2012 First National sent a
default notice stating its intent to foreclose on unsold
subdivided lots and two unsubdivided tracts. An
amended foreclosure notice in January 2013 stated
that First National also intended to foreclose on the
additional unsubdivided tracts still covered by the
2008 deed of trust. When Taffe and Lehner
ultimately were unable to pay the loan, First
National foreclosed and acquired the unsold land by
offset bid at auction in April 2013.
Taffe and Lehner — self-represented —
subsequently contested the foreclosure proceeding in

App. 37
superior court. They filed a complaint for declaratory
relief in November 2013, primarily seeking to set
aside the foreclosure sale and subsequent title
transfers. In March 2014 they amended their
complaint to add fraud claims, including that First
National fraudulently induced them to take the
second loan. Taffe and Lehner alleged that First
National had promised to execute a new deed of trust
secured by only the unsold subdivision lots after they
recorded the second plat and to release the
unsubdivided tracts as it had done when they
recorded their first plat. Taffe and Lehner alleged
that the second loan’s terms violated their reasonable
expectations and that the deed of trust was an
ambiguous adhesion contract that should be
interpreted in their favor. Taffe and Lehner again
amended their complaint in December 2014, seeking
additional declaratory relief and stating a variety of
fraud claims.
Following motion practice and discovery, Taffe
and Lehner suggested their fraud claim against First
National was fraud in the execution,44 rather than
44 Fraud in the execution refers to executing a legal instrument, based on

App. 38
the fraud in the inducement alleged in their
complaint. In July 2015, after Taffe and Lehner
apparently abandoned their claim to set aside the
foreclosure, the superior court dismissed Taffe and
Lehner’s requests for declaratory relief regarding the
foreclosure and ruled that their remedies were
limited to damages. In July 2016 the court granted
First National summary judgment on most of Taffe
and Lehner’s remaining claims. The court denied
summary judgment on the contractual ambiguity
claim, ruling that there was a genuine dispute
whether the deed of trust was fully integrated, and
on the fraud claim that First National
misrepresented the terms of the 2008 deed of trust.
First National subsequently sought to
extinguish the remaining claims as barred by
statutes of limitations. “[T]he ordinary operation of
the statute of limitations looks to ‘the date on which
the plaintiff incurs injury. )

„45

But under Alaska’s

the fraudulent misrepresentation of another, wholly different from the
instrument a person was led to believe was being executed. 17A C.J.S.
Contracts § 202 (2019).
45 Jarvill v. Porky’s Equip., Inc., 189 P.3d 335, 338 (Alaska 2008)
(quoting Russell v. Municipality of Anchorage, 743 P.2d 372, 375
(Alaska 1987)).

App. 39
discovery rule, the statute of limitations does not
begin to run until “a reasonable person has enough
information to alert that person” to a potential cause
of action or to “begin an inquiry to protect his or her
rights. ”46
Applying the discovery rule to the two-year
statute of limitations for tort claims,47 First National
argued that Taffe and Lehner should have been
prompted to inquire whether it intended to fulfill its
alleged promise as early as August 2008, when First
National did not execute a new deed of trust after the
second plat was recorded; probably no later than
February 2010, when they executed a change in
terms agreement that did not alter the collateral;
and certainly by October 2011, when they sent First
National a memorandum apparently contending that
it should release its liens to allow them to sell
unsubdivided tracts. Because more than two years
elapsed between these occurrences and Taffe and
Lehner’s November 2013 complaint, First National
46 Reasner v. State, Dep 7 ofHealth & Soc. Servs., Office of Children’s
Servs., 394 P.3d 610, 614 (Alaska 2017) (quoting Mine Safety
Appliances Co. v. Stiles, 756 P.2d 288, 291 (Alaska 1988)).
47 AS 09.10.070(a).

App. 40
contended that the statute of limitations barred the
fraud in the inducement claim.
Applying the discovery rule to the three-year
statute of limitations for contract claims,48 First
National argued that Taffe and Lehner should have
been prompted to inquire about the terms of the 2008
deed of trust by late 2009, when they disputed the
need for a release from First National to sell a tract,
and no later than February 2010, when they
executed a change in terms agreement that did not
alter the collateral. Because more than three years
elapsed between either occurrence and Taffe and
Lehner’s November 2013 complaint, First National
contended that the statute of limitations barred their
fraud in the factum claim.
Taffe and Lehner opposed, arguing that no
injury occurred until November 2012, when First
National sent its foreclosure notice, and that they
therefore brought their claims within the statutes of
limitations. Taffe and Lehner disputed several of
First National’s assertions, but they presented no
supporting evidence.
48 AS 09.10.053.

App. 41
Following an evidentiary hearing, the superior
court ruled in First National’s favor on its statutes of
limitations defenses. The court found that Taffe and
Lehner knew enough to pursue a claim in 2009, when
they questioned the need for a release from First
National, and no later than February 2010, when
they executed the first change in terms agreement
with First National with no change in collateral. The
court specifically found that by early 2009, Taffe and
Lehner should have realized that First National “had
a different view” of the agreement; they had
questioned First National why a new deed of trust
had not been issued. The court discounted as
unreasonable Taffe and Lehner’s arguments that
they had no reason to believe First National did not
intend to reduce its collateral. The court found that
Taffe and Lehner “had all the information they
needed to move forward with the [fraud] claim . . .
[by] February 2010,” and concluded that their fraud
claim was barred by both the two-year statute of
limitation on torts and the three-year statute of
limitations on contracts.
The superior court entered final judgment in

App. 42
First National’s favor and awarded it attorney’s fees
and costs of roughly $54,000 under Alaska Civil
Rules 82 and 79.49
Taffe and Lehner appeal, arguing that the
superior court erred in both its substantive decisions
and its attorney’s fees award in First National’s
favor.
III.

DISCUSSION

A. The Superior Court Did Not Err Or Violate
Due Process Rights By Conducting A Pretrial
Evidentiary Hearing.50
Taffe and Lehner argue that the superior court
legally erred by resolving at a pretrial evidentiary
hearing the disputed facts about when the statute of
limitations for their claims began to run. But we
have stated on numerous occasions that superior
courts should hold pretrial evidentiary hearings to
49 Alaska R. Civ. P. 82 (providing that “the prevailing party in a civil
case shall be awarded attorney’s fees”); Alaska R. Civ. P. 79
(providing that “the prevailing party is entitled to recover costs . ..
necessarily incurred in the action”).
50 Whether a trial court follows the correct legal framework is a question
of law reviewed de novo. Bibi v. Elfrink, 408 P.3d 809, 815 (Alaska
2017). “We review constitutional questions de novo, adopting the
most persuasive rule of law in light of precedent, reason, and policy.”
State v. Planned Parenthood of Alaska, 171 P.3d 577, 581 (Alaska
2007).

App. 43
resolve whether a statute of limitations has run.51
The superior court therefore did not err by resolving
these factual disputes at an evidentiary hearing.
Taffe and Lehner also contend that at the
evidentiary hearing the superior court violated their
constitutional due process rights by limiting the
proceeding’s length, assuming the role of fact finder,
not determining incontrovertible facts, restricting the
hearing to the statutes of limitations, and denying
their right to a jury trial. But Taffe and Lehner offer
no specific facts to suggest that the hearing’s length
violated their due process rights, and their other
arguments stand in direct opposition to our case law.
The purpose of a pretrial evidentiary hearing
on a statute of limitations question is to resolve
factual disputes about when a statute of limitations
began to run.52 An evidentiary hearing occurs before
trial, and the superior court must act as the fact
51 See, e.g., Reasner, 394 P.3d at 614; Gefre v. Davis Wright Tremaine,
LLP, 306 P.3d 1264, 1278 (Alaska 2013); Catholic Bishop ofN.
Alaska v. Does 1-6, 141 P.3d 719, 725 (Alaska 2006); Cikan v. ARCO
Alaska, Inc., 125 P.3d 335, 339 (Alaska 2005); John’s Heating Serv.
v. Lamb, 46 P.3d 1024, 1033 (2002); Pedersen v. Zielski, 822 P.2d
903,907 n.4 (Alaska 1991).
52 Cikan, 125 P.3d at 342 (“[Disputes concerning the statute of
limitations raise preliminary questions of fact that should ordinarily be
decided by the court after conducting an evidentiary hearing.”).

App. 44
finder.53 Although considering a claim’s substantive
merits sometimes may be necessary, the court
generally should limit its determination to the facts
underlying a statute of limitations defense and not
reach other issues.54 And as long as the hearing
reaches only the statute of limitations, the
constitutional right to a jury trial is not violated.55
We therefore reject Taffe and Lehner’s claims
of legal error and due process violations.
B. The Superior Court Did Not Err When
Applying The Statutes Of Limitations. 56
53 Id. at 339 (“[T]he task of interpreting and applying a statute of
limitations traditionally falls within the province of the courts.”); see
also John’s Heating Serv., 46 P.3d at 1033 n.28 (remanding for statute
of limitations decision and noting “[t]he judge becomes the factfinder
for purposes of determining the applicability of the statute of
limitations” (quoting Decker v. Fink, 422 A.2d 389, 394 (Md. 1980))).
54 See Williams v. Williams, 129 P.3d 428, 431 (Alaska 2006) (“[W]e
also recognize that addressing the substantive merits of a case in such
a preliminary hearing can create considerable tension with the
procedural rights to which parties are entitled, including the right to a
jury trial.”).
55 Gefre, 306 P.3d at 1279 (“But to the extent the superior court does not
address the substantive merits of a case, the use of evidentiary
hearings to decide statutes-of-limitations (cont.) (continued) issues is
constitutional [regarding right to a jury trial].”).
56 “When the superior court holds an evidentiary hearing to resolve
factual disputes about when a statute of limitations began to run, we
review the resulting findings of fact for clear error.” Christianson v.
Conrad-Houston Ins., 318 P.3d 390, 396 (Alaska 2014). “[W]e review
de novo the legal standard used to determine accrual dates, and we
review de novo questions regarding the applicable statute of

App. 45

Taffe and Lehner challenge the superior court’s
application of the discovery rule on several grounds.
They argue that they did not suffer an injury from
First National’s fraud until they were threatened
with foreclosure in November 2012,57 that the
superior court did not determine the date their injury
occurred, and that they made reasonable but
unproductive inquiries tolling the statutes of
limitations until they received actual notice in
November 2012. These arguments lack merit.
1.

Injury

As First National notes, Taffe and Lehner’s
claims proceed from their contention that First
National made misrepresentations when they signed
the 2008 deed of trust. But that raises the question of
when Taffe and Lehner were injured by the alleged
misrepresentations. Our recent Brooks Range
Petroleum Corp. v. Shearer decision is instructive. 58
limitations, the interpretation of that statute, and whether that statute
bars a claim.” Gefre, 306 P.3d at 1271 (footnotes omitted).
57 See Jarvill v. Porky’s Equip., Inc., 189 P.3d 335, 338 (Alaska 2008)
(“[T]he ordinary operation of the statute of limitations looks to ‘the
date on which the plaintiff incurs injury.’ ” (quoting Russell v.
Municipality of Anchorage, 743 P.2d 372, 375 (Alaska 1987))).
58 425 P.3d 65 (Alaska 2018).

App. 46
Brooks involved a venue dispute in a lawsuit
for breach of an employment contract, in part with
respect to claims of negligent and intentional
misrepresentation.59 The critical issue was
determining when the employee suffered actual
harm, i.e., when the tort was complete, 60 which we
said “also arises in the context of statutes of
limitations. ”61 We then discussed two previous
statutes of limitations decisions concluding that a
tort is complete when the plaintiff has “an
appreciable injury” arising from the tortious
conduct62 and that the statute of limitations cannot
begin to run until the plaintiff suffers injury or
harm.63 On the facts of Brooks, we concluded that the
employee’s misrepresentation claim — that his
employment agreement was represented to be for at
least ten years, but his employment was terminated
after two and a half years — did not become complete
until the employee’s termination, when the employee
59
60
61
62

Id. at 68, 72.
Id. at 72-73.
Id. at 73.
Id. (discussing and quoting Jones v. Westbrook, 379 P.3d 963, 967-69
(Alaska 2016)).
63 Id. (discussing Austin v. Fulton Ins. Co., 444 P.2d 536, 539-40
(Alaska 1968)).

App. 47
actually suffered a pecuniary loss.64 We stated that
until the employment termination, the employee had
suffered no loss despite the alleged misrepresentation
two and a half years earlier.65
The fundamental questions in this case, then,
are (1) when did Taffe and Lehner suffer an
appreciable injury from First National’s alleged 2008
misrepresentation and (2) when did they have
inquiry notice, i.e., when should they reasonably
have discovered, the appreciable injury sufficient to
start the statutes of limitations? Although the
superior court’s ruling was focused on the discovery
and inquiry notice question, in this case the
appreciable injury and the discovery date are
essentially the same.
The superior court found that in early 2009
Taffe and Lehner were aware of and complaining to
First National that the unsubdivided tracts had not
been released from the 2008 deed of trust. The
failure to release the tracts meant that Taffe and
Lehner’s title to the tracts was clouded, arguably an
64 Id.
65 Id.

App. 48
appreciable injury in and of itself. But the injury
became more appreciable later in 2009, when, as the
superior court found, Taffe and Lehner wanted to sell
a tract and had to negotiate with First National for a
release of that tract from the deed of trust to
effectuate the sale. As part of that negotiation, Taffe
and Lehner contended that the deed of trust was not
supposed to cover the tract, and First National
responded: “[R]ead your Deed of Trust.” First
National released the tract for sale after reaching an
agreement with Taffe and Lehner on the disposition
of the sale proceeds, but it refused to release any
other tracts from the deed of trust. This meant that
Taffe and Lehner’s title to the tracts remained
clouded. Finally, as the court found, in February
2010, Taffe and Lehner were forced, under protest, to
negotiate a loan extension and change of terms
agreement including leaving the unsubdivided tracts
covered by the deed of trust. The February 2010
agreement meant that Taffe and Lehner’s title to the
unsubdivided tracts remained clouded and they
would be forced to negotiate any future tract sales
with First National. This is an appreciable injury.

App. 49
Because Taffe and Lehner’s misrepresentation
claim was complete no later than February 2010 and
by that same time Taffe and Lehner had notice of
their alleged injury — tracts that they contended
were represented in 2008 to have clear title had
clouded title, and there were related restrictions on
sale proceeds — the superior court correctly
concluded that the applicable statutes of limitations
for Taffe and Lehner’s fraud claims began to run no
later than February 2010.
2.

Exact date of injury

Taffe and Lehner assert that the superior
court erred by not determining the exact date their
injury occurred. But it was unnecessary to establish
an exact date because the court found that Taffe and
Lehner “had all the information they needed to move
forward with the claim from December 21, 2009
[when First National released a tract] through
February 2, 2010 [when the first change in terms
agreement was entered].” Taffe and Lehner point to
no evidence that this finding was clearly erroneous,
and there was no reason for more specificity in light
of the timing.

App. 50
3.

Inquiry

Taffe and Lehner contend that the superior
court, despite determining when a reasonable person
should have begun inquiring into the alleged fraud,
never determined whether they made such inquiries.
But the court found that they started inquiring in
early 2009 whether First National intended to
execute a new deed of trust, when they questioned
why it had not been done.
4.

Equitable tolling

Taffe and Lehner argue in the alternative that
the superior court applied the wrong standard when
determining whether their inquiries were
reasonable. They cite cases discussing the doctrine of
equitable estoppel tolling the statute of limitations.66
First National responds that Taffe and Lehner failed
to present any evidence that it misrepresented or
concealed the fraud claim’s existence and that its
66 “[T]o establish equitable estoppel, ‘a plaintiff must produce evidence
of fraudulent conduct upon which it reasonably relied when forbearing
from the suit.’ ” Waage v. Cutter Biological Div. of Miles Labs., Inc.,
926 P.2d 1145, 1149 (Alaska 1996) (quoting Pedersen v. Zielski, 822
P.2d 903, 908-09 (Alaska 1991)). “[A] party should be charged with
knowledge of the fraudulent misrepresentation or concealment only
when it would be utterly unreasonable for the party not to be aware of
the deception.” Id. (quoting Palmer v. Borg-Warner Corp., 838 P.2d
1243, 1251 (Alaska 1992)).

App. 51
responses to their inquiries clearly indicated it did
not intend to execute a new deed of trust.
Equitable estoppel does not apply if there is no
misrepresentation or concealment regarding a
claim’s existence. Taffe and Lehner point to no
evidence of concealment, and the superior court’s
finding regarding their discovery of the alleged fraud
by February 2010, at the latest, contradicts their
assertion of further concealment.
C. The Superior Court Did Not Abuse Its
Discretion By Not Ruling On Taffe And
Lehner’s Declaratory Judgment Request.67
Taffe and Lehner contend that the superior court
erred by not granting their petition for declaratory
judgment and request for expedited consideration.
First National counters that Taffe and Lehner
essentially waived the issues by incorporating the
petition into an amended complaint and by not
showing why expedited consideration was needed
and that the issues have since been mooted.
67 “We review a trial court’s denial of... declaratory relief for abuse of
discretion . . . .” Smallwood v. Cent. Peninsula Gen. Hosp., 151 P.3d
319, 322 (Alaska 2006).

App. 52
Under Alaska’s Declaratory Judgment Act, in
“an actual controversy in the state, the superior court
. . . may declare the rights and legal relations of an
interested party seeking the declaration, whether or
not further relief is or could be sought, ”68 There was
no requirement that the court make a declaratory
judgment ruling. “[Declaratory relief is generally
used to settle a controversy that has yet to ‘ripen into
violations of law,’ or ‘to afford one threatened with
liability an early adjudication without waiting until
an adversary should see fit to begin an action after
the damage has accrued.’

”69

“ [Declaratory

judgments are rendered to clarify and settle legal
relations, and to ‘terminate and afford relief from the
uncertainty, insecurity, and controversy giving rise
to the proceeding.’ A court should decline to render
declaratory relief when neither of these results can

68 AS 22.10.020(g) (emphasis added); see also Brause v. State,
Dep’t ofHealth & Soc. Servs., 21 P.3d 357, 358 (Alaska 2001)
(“The language of the [Declaratory Judgment Act] makes it explicit
that whether to issue a declaration is a discretionary decision
committed to the superior court.”).
69 Lowell v. Hayes, 117 P.3d 745, 755-56 (Alaska 2005) (quoting
CHARLES ALAN WRIGHT ET AL., FED. PRAC. & PROC.: CIV. §
2751 (3d ed. 1998)).

App. 53
be accomplished. ”70
Taffe and Lehner petitioned for declaratory
judgment at the same time they were litigating their
fraud and contract claims. The issues raised in their
petition overlapped with — and in some part were
identical to — the fraud and contract claims stated in
their complaint. The superior court ultimately
dismissed the fraud and contract claims, and we are
affirming that dismissal. Taffe and Lehner have
made no showing that, absent a viable fraud or
contract claim, their claims for declaratory relief
raised different issues that could be addressed. We
therefore reject their argument; we cannot conclude
that the superior court abused its discretion, and
there is no need to reach the question whether
expedited consideration should have been granted.
D. The Superior Court Did Not Abuse Its
Discretion By Awarding Attorney’s Fees To
First National.71

70 Id. at 755 (quoting Jefferson v. Asplund, 458 P.2d 995, 997-98
(Alaska 1969)
71 We review the amount of an attorney’s fees award for abuse of
discretion. Williams v. GEICO Cas. Co., 301 P.3d 1220, 1225 (Alaska
2013).

App. 54
Taffe and Lehner assert that the superior court erred
by awarding attorney’s fees to First National, based
on arguments about the length of its various filings
and unspecified errors it made during litigation.
First National sought final judgment and attorney’s
fees of roughly $54,000, equal to 20% of its
“reasonable and necessary attorney’s fees,” under
Alaska Civil Rule 82(b)(2), and the court granted
First National’s motion. Because Taffe and Lehner
point to no evidence whatsoever demonstrating that
the superior court abused its discretion by following
Rule 82, we affirm the attorney’s fees award.
IV. CONCLUSION
The superior court’s decision is AFFIRMED.

App. 55

APPENDIX D

In the Supreme Court of the State of Alaska

Thomas M. Taffe and Devony L.
Lehner, Appellants,
v.
First National Bank of Alaska, Appellee

Trial Court Case No. 3HO-13-00213CI
Supreme Court No. S-16854
Order Petition for Rehearing
Date of Order: 10/29/19
Before: Bolger, Chief Justice, Winfree, Stowers
Maassen, and Carney, Justices
On consideration of the Petition for Rehearing
filed on 10/7/19, and the response filed on 10/16/19,
It IS ORDERED: The Petition for Rehearing is

Denied.

App. 56

Entered by the direction of the court.

Clerk of Appellate Courts

Meridith Montgomery
cc:

Supreme Court Justices
Judge Gist
Trail Court Clerk — Homer
Publishers (Opinion #7411, 9/27/19)

Distribution:
Mail:
Taffe, Thomas M.
Lehner, Deyony L.
Moore, Bruce A.

